c(

111

LAW

MCGUIRE LAW, P.C.
55 West Wacker Drive, 9th Floor
Chicago, Illinois 60601
Tel.: (312) 893-7002

October 10, 2019
Via FedEx
Danny Bickell, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

City of Flint Michigan, et aL, Petitioners v. Shari Guertin, et aL, No. 19-205;
Stephen Busch, et aL, Petitioners v. Shari Guertin, et al., No. 19-350

Dear Mr. Bickel:
I represent the respondents in the above-entitled cases. The petitioners in both cases seek
review from the same judgment of the United States Court of Appeals for the Sixth Circuit. See
Guertin v. Michigan, 912 F.3d 907 (6th Cir. 2019), reh'g en banc denied, 924 F.3d 309.
These two petitions involve a ruling in one of the lead cases arising out of the Flint Water
Crisis. Numerous other pieces of Flint Water Crisis litigation are pending in federal and state
courts. See, e.g., In re Flint Water Cases, 384 F. Supp. 3d 802 (E.D. Mich. 2019); Mays v. Snyder,
916 N.W.2d 227 (Mich. App. 2018), appeal granted, 926 N.W.2d 803 (Mich. 2019).
The Busch petition (No. 19-350) was filed on September 13, 2019, following an extension.
The brief in opposition is currently due on October 17. Pursuant to S. Ct. R. 30.4, I respectfully
request a 60-day extension, so that our brief in opposition would be due on December 16.
The City of Flint petition (No. 19-205) was filed on August 14, 2019. The brief in
opposition to that petition is currently due, after an extension, on November 4. I respectfully
request an additional extension until December 16 to respond to the City of Flint petition in order
to align the response deadlines for both petitions, so that we can file a single, consolidated response
to both petitions. Absent an extension of time, respondents will be subject to two conflicting
response deadlines.
There is good cause for the requested extensions. The United States District Court
presiding over the consolidated Flint Water Cases has appointed mediators to facilitate discussions
that seek to resolve the litigation. The Michigan Supreme Court recently entered a stipulated order
extending briefing in Mays, supra, until December to give the parties space to engage in these
discussions. We believe that a similar extension here would serve the interest of judicial economy
and allow the parties to engage fully in the court-established mediation process.
Respondents make this request in good faith and not for purposes of delay or any other
improper purpose. The requested extension will not cause undue delay nor result in undue
prejudice to petitioners. In accordance with Supreme Court Rule 30.2, this request is being
submitted within the periods sought to be extended.

RECEIVED
OCT 1 5 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

October 10, 2019
Page 2 of 2

Thank you for your assistance.
Sincerely,

aul T ,Geske
One Respondents' Attorneys
Myles McGuire
Paul T. Geske
MCGUIRE LAW, P.C.
55 W. Wacker Drive, 9th Fl.
Chicago, IL 60601
Tel: (312) 893-7002
Fax: (312) 275-7895
mmcguire@mcgpc.com
pgeske@mcgpc.com

